90 -827 9

No.

IN THE
SUPREME COURT OF THE UNITED STATES
KIRK COTTOM —
VS.
UNITED STATES OF AMERICA— RESPONDENT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks for leave to file the attached - May, 15. 2019 - petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis. (As this was his status as a prisoner on
May 15,2019)
The petitioner was previously granted leave to proceed in forma pauperis in th; follovpij|j£©i£rJs:
Court of Appeals for the Eighth Circuit

MAY 1 5 2019

United States District Court for the District of Nebraska

OFFICE OF THE CLERK
SUPREME COURT, U.S.

Petitioner’s affidavit or declaration is not attached because the court below appoint counsel in the current
proceeding, and: the appointment was made under the Criminal Justice Act of 1964, 18 USC 3006A.

Kirk Cottom

